U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                    NATIONAL INSTITTUTE
                          OF STANDARDS
                       AND TECHNOLOGY

        Award for Five-Axis Machining Center
               Under RFQ SB1341-02-Q-0550
           Justified But Procurement Process
                          Needs Improvement


        Audit Report No. STD-15839-3-0001/October 2003




                              PUBLIC
                              RELEASE



   Office of Audits, Science & Technology Audits Division

